Report No. D-2011-025             December 20, 2010




     Dugway Proving Ground, Utah-American Recovery
      and Reinvestment Act Project to Repair Power
          Plant and Replace Failed Generators
                                    INSPECTOR GENERAL
                                   DEPARTMENT OF DEFENSE
                                      400 ARMY NAVY DR IVE
                                 ARLINGTON. VIRGINIA 22202-4704
                                                                          DEC 2 0 2010

MEMORANDUM FOR UNDER SECRETARY OF DEFENSE (COMPTROLLER)/CHIEF
                  FINANCIAL OFFICER
               AUDITOR GENERAL, DEPARTMENT OF THE ARMY


SUBJECT: Dugway Proving Ground, Utah-American Recovery and Reinvestment
         Act Project to Repair Power Plant and Replace Failed Generators
         (Report No. 0 -20 I 1-025)

The DoD Office of Inspector General is performing audits of DoD's implementation of Public
Law 111-5, "American Recovery and Reinvestment Act of2009," February 17,2009 (Recovery
Act). We selected Recovery Act Project No. 76940 at Dugway Proving Ground (DPG), Utah, to
repair the existing electric generation power plant and to replace failed generators (building
4224), which will function as a standby system to provide electricity in the event of a power
outage.

Our audit objective in selecting this project was to determine whether:

   •   the projects were adequately planned to ensure the appropriate use of Recovery Act funds
       (Planning);
   •   the project funds were awarded and distributed in a prompt, fair, and reasonable manner
       (Funding); and
   •   the project contracts contained required Recovery Act Federal Acquisition Regulation
       (FAR) clauses (Initial Project Execution).

Project 76940 was adequately funded and initially executed and met the Recovery Act goals
regarding accountability and transparency. However, DPG and the U.S . Corps of Engineers-
Huntsville District (USACE-Huntsville) personnel did not adequately plan project costs. DPG
and USACE-Huntsville personnel lacked supporting documentation for their initial $7.5 million
cost project estimate. Despite the inadequacies of the initial cost estimate, we believe the project
should proceed as planned because contracting personnel obtained adequate competition,
notified Congress of the increased cost, and allocated sufficient funds to complete the project.

PLANNING

DPG and USACE-Huntsville planning officials submitted a project that was a valid requirement;
however, the project's initial $7.5 million cost estimate was an unsupported rough estimate.
After receiving mUltiple bids for the power plant renovations along with a design, USACE-
Huntsville revised the estimate to $11.4 million.

With the assistance of our Technical Assessment Division, we reviewed the DO Form 1391 ,
"Military Construction Project Data," and supporting cost documentation for Project 76940. The
DD Form 1391 adequately explained the project justification, requirements, current situation,

                                                 1
and impact if the project was not provided. Specifically, [tern II of the DD Form 1391 noted
that the installation's existing power station, constructed in 1943 , contains six inoperative legacy
generators, and DPG did not have sufficicnt back-up power to meet mission dcmands . Based on
our site vi sit and review of peak electrical demand at DPG, we validated the power plant
renovation project requirements and the procurement of three standby generators.

FUNDTNG

We verified that Recovery Act funding was properly transferred to Project 76940, and USACE-
Huntsville personnel properly cited Recovery Act appropri ation numbers. Headquarters-
US ACE, issued fo ur Funding All owance Documents to the U.S. Army Engi neering Division
Huntsville, Alabama, for the DPG Recovery Act Project: on July 14,2009, for $7.5 million;
June 23 , 20 10, for $3.9 million; Jul y 13,20 10, decreasing funding by $ 1 million; and
August 11 , 20 10, decreas ing funding by $2 14,000. As of September 30, 20 10, net Army
Recovery Act Operation and Maintenance fundin g for Project 76940 totaled $10.2 milli on.
USACE-Huntsville contracting officials awarded five contract actions totaling approximately
$ 10 million. Each contract action cited Appropriation Code 21 2022, "Operation and
Maintenance, Army." The approxi mate $200,000 of remaining funding represents savings
subject to Army reprogramming to other Recovery Act Operation and Ma intenance projects.

CONTRACTING

USACE-Huntsville contracting personnel awarded fi ve contract actions totaling approx imately
$ 10 million for Project 76940. Two contract actions, valued at $8 milli on, were delivery orders
issued under previously competed firm-fixed priced (FFP) indefi nite-deli very, indefi nite-quantity
and multiple award contracts, including a design build award, valued at $7.5 million. One
contract action, val ued at $9,478 , for an enviromnental site survey was an 8(a) small business
sole-source award . Two contract actions, valued at $2 million, procured three generators from
the General Services Administration (GSA) supply schedule. A ll five contract actions contained
the req uired FAR Recovery Act cl auses.

We reviewed the presolicitations and awards of the five Proj ect 76940 contract actions. We
concl uded that USACE-Huntsville contracting personnel properly solicited and awarded the
contract actions for the project. The language in the presolicitation notices met the intent of
Recovery Act project requirements, and the synopses in the presolicitation notices clearly
explained the nature of the work.

Four out of the five award notices were posted on the Federal Business Opportuniti es (FBO)
Web site as mandated by Office of Management and Budget (OMB) Memorandum M-09-15 ,
" Updated Implementing Guidance fo r the American Recovery and Reinvestment Act of2009,"
April 3, 2009. However, an April 30, 20 10, awards notice for delivery order W912DY-I-F-500
(from the GSA Federal Schedule) was not posted on the FBO Web site. On September 27, 20 I0,
we notifi ed the Energy Program Manager and contracting officer fo r OSACE-Hul1tsvill e that the
award notice had not been posted On the FBO Web site. In response, USACE- Hulltsville
personnel posted the award notification to FBO on November 3, 20 I O. The following table
identifies the five contracts supporting Project No. 76940.


                                                  2
                          Contract Actions Supporting Project 76940

Contract Numberrrype      Delivery       Award         Award        Description      Competitively
                           Order        Amount          Date                           Awarded
W912DY ·09·D·0003/FFP        4          $549,988       10102/09    A&E Services         YES

W912DY ·09·D·0045IFFP         6          $9,478        02122110     Site Survey           NO
                                                                                       8(.) Sole
                                                                                        Source

  GS·07F·5666R1FFP        W912DY·      $1 ,320,983     04/30/ 10    Generators           YES
                          IO·F·5000                                                      GSA
                                                                                       Schedule
W912DY·08·D·0027/FFP          15       $7,458,089      06/25110    Facility Repair       YES

  GS·07F·5666R1FFP        W912DY·       $660,492       06/30/ 10     Generator           YES
                          IO·F·040 I                                                     GSA
                                                                                       Schedule



REVLEW OF DPG AND USACE-HUNTSVILLE DISTRICT INTERNAL CONTROLS

DPG and USACE-Huntsville internal controls over the planning, funding, contracting, and initial
project execution of the Dugway Recovery Act project reviewed were generally effective as they
applied to the audit objectives.

AUDIT STANDARDS

We conducted this audit from October 2009 through December 2010 in accordance with
generally accepted government auditing standards. Generally accepted government auditing
standards require that we plan and perform the audit to obtain sufficient, appropriate evidence to
provide a reasonable basis for our conclusions based on our audit objectives. We believe that the
evidence obtained provides a reasonable basis for our conclusions based on our audit objectives.

SCOPE AND AUDIT METHODOLOGY

We visited DPG and USACE-Huntsville to review the selected project. We interviewed program
personnel at DPG, and contracting personnel at USACE-Huntsville. At both locations, we
reviewed requirements, contracting, and financial documentation dated from October 2009 to
November 3,2010. We used this supporting documentation to determine whether contract
solicitations and awards met OMB and DoD Recovery Act implementation and transparency
requirements.

                                                   3
Before selecting DoD Recovery Act projects for audit, the Quantitative Methods and Analysis
Division of the DoD Office of Inspector General analyzed all DoD agency-funded projects,
locations, and contracting oversight organizations to assess the risk of waste, fraud, and abuse
associated with each. We selected most audit projects and locations using a modified Delphi
technique, which allowed us to quantify the risk based on expert auditor judgment, and other
quantitatively developed risk indicators. We used information collected from all projects to
update and improve the risk assessment model. We selected 83 projects with the highest risk
rankings; auditors chose some additional projects at the selected locations. DPG Project 76940
was I of the 83 selected projects.

We did not use classical statistical sampling techniques that would permit generalizing results to
the total population because there were too many potential variables with unknown parameters at
the beginning of this analysis. The predictive analytic techniques employed provided a basis for
logical coverage not only of Recovery Act dollars being expended, but also of types of projects
and types of locations across the Military Services, Defense agencies, State National Guard units,
and public works projects managed by USACE.

USE OF COMPUTER-PROCESSED DATA

We used computer-processed data to perform this audit. Specifically, we used posted notices on
the FBO Web site ( http://www.fedbizopps.gov ) in meeting our audit objectives. We tested the
accuracy of the data by comparing the project data reported on the FBO Web site with
documents in the contract file. Our audit focused on the reporting of contract actions on specific
Army projects. From these procedures, we concluded that the DoD data were sufficiently
reliable for our audit purposes.

PRIOR AUDIT COVERAGE

The Government Accountability Office, the Department of Defense Inspector General, and the
Military Departments have issued reports and memoranda discussing DoD projects funded by the
Recovery Act. You can access unrestricted reports at http://www.recovery.gov/accountability.

We appreciate the courtesies extended to the staff. Please direct questions to me at (703) 604-
920 1 (DSN 664-9201). [fyou desire, we will provide a formal briefing on the results.



                                    ~e .2r-~ Richard B. Jolliffe
                                             Assistant Inspector General
                                             Acquisition and Contract Management




                                                4
